<html>
<title> - FINANCIAL SERVICES AND THE LGBTQ+ COMMUNITY: A REVIEW OF DISCRIMINATION IN LENDING AND HOUSING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       FINANCIAL SERVICES AND THE
                       LGBTQ+ COMMUNITY: A REVIEW
                          OF DISCRIMINATION IN
                          LENDING AND HOUSING

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT
                           AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-64
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-453 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------




                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             ANN WAGNER, Missouri
GREGORY W. MEEKS, New York           PETER T. KING, New York
WM. LACY CLAY, Missouri              FRANK D. LUCAS, Oklahoma
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                SCOTT TIPTON, Colorado
JOYCE BEATTY, Ohio                   ROGER WILLIAMS, Texas
DENNY HECK, Washington               FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
RASHIDA TLAIB, Michigan              TED BUDD, North Carolina
KATIE PORTER, California             DAVID KUSTOFF, Tennessee
CINDY AXNE, Iowa                     TREY HOLLINGSWORTH, Indiana
SEAN CASTEN, Illinois                ANTHONY GONZALEZ, Ohio
AYANNA PRESSLEY, Massachusetts       JOHN ROSE, Tennessee
BEN McADAMS, Utah                    BRYAN STEIL, Wisconsin
ALEXANDRIA OCASIO-CORTEZ, New York   LANCE GOODEN, Texas
JENNIFER WEXTON, Virginia            DENVER RIGGLEMAN, Virginia
STEPHEN F. LYNCH, Massachusetts      WILLIAM TIMMONS, South Carolina
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
              Subcommittee on Oversight and Investigations

                        AL GREEN, Texas Chairman

JOYCE BEATTY, Ohio                   ANDY BARR, Kentucky, Ranking 
STEPHEN F. LYNCH, Massachusetts          Member
NYDIA M. VELAZQUEZ, New York         BILL POSEY, Florida
ED PERLMUTTER, Colorado              LEE M. ZELDIN, New York, Vice 
RASHIDA TLAIB, Michigan                  Ranking Member
SEAN CASTEN, Illinois                BARRY LOUDERMILK, Georgia
MADELEINE DEAN, Pennsylvania         WARREN DAVIDSON, Ohio
SYLVIA GARCIA, Texas                 JOHN ROSE, Tennessee
DEAN PHILLIPS, Minnesota             BRYAN STEIL, Wisconsin
                                     WILLIAM TIMMONS, South Carolina
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    October 29, 2019.............................................     1
Appendix:
    October 29, 2019.............................................    35

                               WITNESSES
                       Tuesday, October 29, 2019

Adams, Michael, CEO, SAGE (Services and Advocacy for LGBT Elders)     6
Conron, Kerith, Research Director, Williams Institute, UCLA 
  School of Law..................................................     8
Creighton, Francis, President and CEO, Consumer Data Industry 
  Association (CDIA).............................................    13
David, Alphonso, President, Human Rights Campaign................    10
Sun, Hua, Associate Professor, Finance, Iowa State University....    11
Tobin, Harper Jean, Director of Policy, National Center for 
  Transgender Equality...........................................     5

                                APPENDIX

Prepared statements:
    Adams, Michael...............................................    36
    Conron, Kerith...............................................    49
    Creighton, Francis...........................................    54
    David, Alphonso..............................................    59
    Sun, Hua,....................................................    66
    Tobin, Harper Jean...........................................    70

              Additional Material Submitted for the Record

Green, Hon. Al:
    Written statement of the Center for American Progress........    92
    Supplemental statement of Professor Hua Sun..................   111
    Written statement of Zillow..................................   112

 
                       FINANCIAL SERVICES AND THE
                       LGBTQ+ COMMUNITY: A REVIEW
                          OF DISCRIMINATION IN
                          LENDING AND HOUSING

                              ----------                              


                       Tuesday, October 29, 2019

             U.S. House of Representatives,
                          Subcommittee on Oversight
                                and Investigations,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2128, Rayburn House Office Building, Hon. Al Green, 
[chairman of the subcommittee] presiding.
    Members present: Representatives Green, Velazquez, Tlaib, 
Casten, Dean, Garcia of Texas, Phillips; Barr, Posey, Davidson, 
and Rose.
    Ex officio present: Representatives Waters and McHenry.
    Also present: Representatives Pressley and Wexton.
    Chairman Green. The Oversight and Investigations 
Subcommittee will come to order.
    Today's hearing is entitled, ``Financial Services and the 
LGBTQ+ Community:--hereinafter, I will simply say, `the 
community'--A Review of Discrimination in Lending and 
Housing.''
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time. Also, without 
objection, members of the full Financial Services Committee who 
are not members of this subcommittee may participate in today's 
hearing for the purposes of making an opening statement and 
questioning witnesses.
    Dear friends, this is a landmark hearing, and it is long 
overdue. And if there is one thing that I would have you take 
away from this hearing, especially those persons who are 
members of the community, it is this: You are not alone. You 
have allies in the Congress of the United States of America. 
There are people here who have suffered invidious 
discrimination, understand the implications of it, do not want 
to manage it, and who want to end it. You are not alone.
    I would also have you know that Dr. King was right when he 
reminded us that, ``Life is an escapable network of mutuality, 
tied in a single garment of destiny. What impacts one directly, 
impacts all indirectly.''
    He went on to say that, ``I can't be all that I ought to be 
until you are all that you ought to be. And you can't be all 
that you ought to be, until I'm all that I ought to be.'' You 
are not alone. We are in this together.
    And today, we have evidence, overwhelming evidence that 
will show invidious discrimination, invidious discrimination 
that quite frankly, until this hearing, I was not aware of.
    I would also remind you that the staff has done an 
outstanding job in compiling this information, and I am honored 
to tell you that the Honorable Maxine Waters, the chairwoman of 
the full Financial Services Committee, has also indicated that 
she is supportive of this hearing.
    You are not alone. The evidence is going to show many 
things.
    And for the record, I am into my 5-minute dissertation, Mr. 
Ranking Member.
    The record will show many things. The record and the 
evidence will show that there is economic insecurity among the 
LGBTQ+ community.
    The record will show that the LGBTQ+ community experiences 
discrimination in housing and lending.
    The record will show a lack of legal protections for the 
community. In fact, the Supreme Court is considering a trilogy 
of cases that will decide whether Federal laws prohibiting sex-
based employment discrimination protect LGBTQ+ persons.
    The record will show that when it comes to mortgage 
lending, the discrimination exists, and it is provable. When it 
comes to rentals, these discriminations exist, and it is 
provable.
    And finally, the evidence is going to show that 
discrimination against elderly LGBTQ+ persons exists, as well.
    As I indicated, you are not alone. We are going to do all 
that we can to not only present evidence of invidious 
discrimination, but we also want to have legislation to combat 
the discrimination. It is not enough for us to simply hold this 
hearing, present all of this empirical evidence, and then walk 
away, assuming that we have done our jobs. We have to produce 
meaningful evidence that can produce tangible results.
    And if we should do this, we will have made a difference in 
the lives of not only the members of the community, but in the 
lives of all people within the country, because this is broader 
than the community. It is really about humanity and whether 
humanity will go forward together, recognizing that invidious 
discrimination is not something that we can tolerate.
    For edification purposes, these hearings do make a 
difference. Unrelated to this hearing, but as evidence of the 
fact that the hearings make a difference, I have a document. It 
is a publication entitled, ``Citigroup's Jane Fraser in Line to 
Become the First Female CEO of a Major Bank.'' This is in part 
because at a hearing, we had representatives of the major banks 
who were asked whether or not their successors would be a 
person of color, a member of the community, or a person who was 
a female. And the evidence that was displayed, the visual 
evidence has had an impact, and it looks like we are moving in 
the right direction.
    We hope that this hearing will produce similar results. 
With that said, I shall now yield 5 minutes to the ranking 
member of the subcommittee, Mr. Barr, for his opening 
statement.
    Mr. Barr. Thank you, Chairman Green, for holding this 
hearing, and for your continuing work to promote equality in 
financial services. I welcome our witnesses. I thank you all 
for being here.
    I think we can all agree that discrimination based on race, 
gender, or sexual orientation, or any other immutable 
characteristic, is wrong and should not be tolerated anywhere, 
including in the mortgage and consumer lending industries. 
Unfortunately, despite Federal and State laws prohibiting 
discrimination on those bases in financial services, some 
evidence suggests that LGBTQ+ citizens may still face disparate 
treatment in housing and consumer lending.
    Unfortunately, lenders' access to and reliance on data that 
is not demonstrable of creditworthiness, such as gender or 
race, may lead to subjective judgments that discriminate 
against certain populations. Lenders and landlords should rely 
more heavily on risk-based metrics for evaluating 
creditworthiness that are blind to demographics or immutable 
characteristics.
    Data-driven decisions could prevent discrimination or 
judgments that may be clouded by unintended biases, or intended 
biases for that matter. Credit reports do not utilize data on 
gender, sex at birth, sexual orientation, or race. They rely 
solely on metrics that reflect a borrower's credit history and 
ability to repay, such as number of open lines of credit, 
balances due, payment history, and whether the borrower has 
filed for bankruptcy. Reliance on these metrics without 
consideration of race, color, religion, or sexual orientation 
can promote equality in financial services and guard against 
deliberate or unintended biases.
    Some of our witnesses today relied on data provided by 
lenders under the Home Mortgage Disclosure Act, or HMDA, for 
their research. Among other things, HMDA requires lenders to 
collect and report gender data on their borrowers. While this 
may be useful information, it has the potential to allow for 
biased underwriting.
    We need to ask ourselves: Are data provided pursuant to 
HMDA doing more harm than good? Are there more effective ways 
to collect necessary information that could offset unintended 
biases? This is a conversation that I very much look forward to 
having with the chairman and other members of the committee as 
we work to close the gap of financial services in underserved 
populations.
    Research indicates that LGBTQ+ Americans utilize basic 
financial services, such as bank accounts and retirement plans, 
at a lower rate than the non-LGBTQ+ population. It should be a 
goal of this committee to expand access to financial products 
and services to all corners of the population regardless of 
race, gender, sexual orientation, or whether they live in an 
urban or rural community.
    Expanding financial inclusion initiatives and improving 
financial literacy are critical to closing the gaps for 
unbanked and underbanked citizens in our country. In an age of 
economic prosperity, we should work to ensure that all citizens 
feel the benefits. And data-driving decision-making, based on 
financial technology, and innovation driven through free 
enterprise, is very likely the best antidote to discrimination.
    Once again, I thank Chairman Green for holding this 
important hearing, and I thank the witnesses for being here 
today. And I will yield the remainder of my time to the ranking 
member of the Full Committee, Mr. McHenry.
    Mr. McHenry. I thank the ranking member. And I believe 
every citizen should have an equal opportunity for home 
ownership. We have important laws on the books, Federal and 
State laws, that prohibit discrimination. But as we will hear 
from witnesses today, there are indications that discrimination 
based on gender identity and sexual orientation may be 
occurring.
    As it stands now, the Home Mortgage Disclosure Act, or 
HMDA, forces lenders to identify and report the gender of their 
borrowers. On one hand, HMDA provides a useful source of data. 
But on the other hand, the presence of gender information on 
mortgage applications may be contributing to discrimination in 
the first place.
    This hearing is important for us to understand what is 
happening in the real world and to change policy where 
necessary. I yield back.
    Chairman Green. The Chair recognizes the gentlelady from 
California, Chairwoman Maxine Waters, the chairwoman of the 
Full Committee, for 1 minute.
    Chairwoman Waters. Thank you very much, Congressman Green, 
for holding this important hearing.
    Americans who identify as lesbian, gay, bisexual, 
transgender, or queer have long been subjected to 
discrimination while attempting to access quality education, 
employment, healthcare, housing, and basic financial services. 
Faced with such prolific injustice, LGBTQ+ individuals, 
especially LGBTQ+ persons of color, are more likely to 
experience economic insecurity than non-LGBTQ+ individuals.
    Alarmingly, the Trump Administration has sought to gut 
Federal regulations that guard against anti-LGBTQ+ 
discrimination in lending and housing. In May 2019, for 
example, HUD proposed changing its own rules to allow federally 
funded homeless shelters to deny admission to transgender 
individuals based on their gender identity. It is unacceptable 
that this Administration is using taxpayer dollars to put 
already vulnerable Americans further at risk.
    I thank you, Mr. Chairman. And I have a question I will ask 
later on, if I have the opportunity. I yield back.
    Chairman Green. The gentlelady yields back.
    At this time, I would like to welcome the witnesses, and I 
am pleased to introduce the witnesses: Harper Jean Tobin, 
director of policy, National Center for Transgender Equality; 
Michael Adams, CEO of SAGE; Kerith Conron, research director, 
Williams Institute, UCLA School of Law; Alphonso David, 
president, Human Rights Campaign; Hua Sun, associate professor 
of finance, Iowa State University; and Francis Creighton, 
president and CEO, Consumer Data Industry Association. I 
welcome the witnesses and thank you for being here.
    The witnesses will be recognized for 5 minutes each to give 
an oral presentation of their testimony. And without objection, 
the witnesses' written statements will be made a part of the 
record. Once the witnesses finish their testimony, each Member 
will have 5 minutes within which to ask questions.
    On your table are three lights: green means go; yellow 
means that you have one minute left, which means that you are 
running out of time, and you should start to conclude your 
remarks; and the red light means that you are out of time. When 
the red light is visible, you will probably hear me give a 
light tapping of the gavel, which will give you further 
indication that you are out of time.
    With that, Ms. Tobin, you are recognized for 5 minutes for 
your opening statement.

 STATEMENT OF HARPER JEAN TOBIN, DIRECTOR OF POLICY, NATIONAL 
                CENTER FOR TRANSGENDER EQUALITY

    Ms. Tobin. Thank you, Chairman Green and Ranking Member 
Barr, and Chairwoman Waters and Ranking Member McHenry--it's 
nice to have you with us today--and members of the subcommittee 
and the Full Committee.
    My name is Harper Jean Tobin. I am director of policy for 
the National Center for Transgender Equality (NCTE), and I am 
pleased to be able to testify for this historic hearing.
    Nearly 2 million transgender Americans live all across this 
country. And while being transgender need not and should not be 
a barrier to opportunity in the United States, transgender 
Americans today do face severe and widespread discrimination.
    In 2015, NCTE conducted the U.S. Transgender Survey with 
nearly 28,000 respondents in every State. We found 
homeownership rates one-quarter that of the U.S. population.
    We found nearly one in four respondents had faced housing 
discrimination or housing instability as a result of being 
transgender in the past year alone.
    We found nearly one in three respondents had been homeless 
in their lives. More than one in 10 of them have been homeless 
in the past year alone. These rates were even higher among 
transgender people of color and those with disabilities.
    In the previous year, 7 in 10 transgender people seeking 
emergency shelter had faced discrimination there, including 
harassment, physical assault, or being turned away simply 
because they were transgender. And one in four respondents who 
had been homeless in the past year reported they did not even 
try to seek shelter out of fear.
    For nearly 20 years, Federal courts have overwhelmingly 
held that laws such as the Fair Housing Act and the Equal 
Credit Opportunity Act prohibit anti-transgender 
discrimination. Unfortunately, the Trump Justice Department has 
rejected the majority view of the courts and urged the Supreme 
Court to strip those protections away.
    In 2012, independently of those laws, HUD adopted the Equal 
Access Rule, explicitly prohibiting discrimination in all HUD-
funded programs. And in 2016, after further study, it added 
clarifying language to the rule providing that individuals 
should be placed, served, and accommodated in accordance with 
their gender identity.
    Secretary Carson has repeatedly assured Congress he had no 
plans to roll back that rule, most recently on May 21st of this 
year. However, the very next day, HUD revealed that it in fact 
planned to do just that and had already sent a plan to do that 
to the Office of Management and Budget a month previously.
    The Secretary's explanation for misleading the Congress and 
this committee was essentially the same one the White House has 
given for its ban on transgender troops, which is to say we are 
against discrimination, but that turning transgender people 
away is not discrimination, which is nonsense.
    HUD's proposal is inconsistent with authorizing statutes 
that direct it to ensure every person in the United States has 
access to decent shelter. It also conflicts with the Violence 
Against Women Act and the Fair Housing Act. Advocates for the 
homeless and for survivors of sexual and domestic violence were 
quick to condemn this heartless move, but HUD has seemingly 
doubled down.
    Last month, Secretary Carson shocked his own staff with an 
unprompted and demeaning anti-transgender tirade. While it is 
understandable that some people may have questions or concerns 
about how non-discrimination protections for transgender people 
work in practice, we do not have to imagine the answers to 
those questions. We already have them from decades of 
experience with hundreds of State and local laws; with 2 
decades of Federal case law; with several years of 
implementation of the HUD rule nationally, and the parallel 
protections of VAWA; and from HUD's extensive past consultation 
with leaders and experts in the field.
    We need to address housing and lending discrimination 
against LGBTQ+ Americans and the high rates of homelessness 
among these communities. To do that, Congress should act in 
several ways.
    First, to immediately block HUD from rolling back Equal 
Access protections as this committee has already voted to do, 
and to stop other Administration attacks on housing 
opportunities, such as the Mixed Immigrant Status rule that 
would evict tens of thousands of children.
    This committee should demand answers and transparency from 
Secretary Carson about the process by which he developed his 
anti-transgender proposal.
    The Congress should clarify and strengthen our fair housing 
and lending laws by passing the Equality Act, as the House has 
already done.
    And finally, we need to make ambitious investments in 
ending homelessness in this country. I know the chairwoman has 
introduced a bill that would get us some way towards those 
investments. These problems are grave, but they are not 
inevitable. By committing to equality and investing in 
opportunity, we can ensure all Americans have access to a 
decent home. Thank you.
    [The prepared statement of Ms. Tobin can be found on page 
70 of the appendix.]
    Chairman Green. Thank you for your testimony, Ms. Tobin.
    Mr. Adams, you are recognized for 5 minutes for an opening 
statement.

 STATEMENT OF MICHAEL ADAMS, CEO, SAGE (SERVICES AND ADVOCACY 
                        FOR LGBT ELDERS)

    Mr. Adams. Thank you, Chairman Green and Ranking Member 
Barr, for the opportunity to be here today on behalf of SAGE, 
the country's oldest and largest organization advocating on 
behalf of 3 million LGBT older adults.
    My goal today is to add to the committee's understanding of 
the causes, as well as the costs, of financial insecurity and 
housing discrimination in particular as it impacts LGBT older 
people.
    Let me start by briefly sharing two stories of our LGBT 
elder pioneers. Like countless members of the LGBT community, 
Jay Toole, now 71, has stood up to a lifetime of ignorance, 
harassment, and danger simply for being who she is.
    At 13, Jay was forced to leave home because of her family's 
homophobia. At 20 and homeless, Jay witnessed the start of the 
Stonewall Uprising on June 28, 1969. Fifty years later and 
after a lifetime of community service, Jay now struggles to get 
by financially, and also struggles mightily to find 
discrimination-free housing which she can afford.
    As a boy, Jeremiah Newton realized that he was gay. He knew 
that he would have to fight for his place in the world. 
Jeremiah recently said, ``As a young gay man, I witnessed the 
first night of the Stonewall Rebellion. It's important to know 
that everybody who is LGBT, whether we are 15 or 100, has been 
through our own personal stonewall. We've gone through 
something difficult. We've jumped over that wall to be free.''
    Jay and Jeremiah's experiences touch on themes SAGE sees 
consistently across the LGBT elder population: Economic 
insecurity and disproportionate susceptibility to financial 
scams and abuse. Many LGBT elders also face housing and 
employment discrimination, and the cumulative impact of 
discrimination over course of their lives.
    As a result, LGBT older people are far more concerned than 
older Americans in general about their financial security as 
they age. Nationally, same-sex older couples have lagged 
significantly behind different-sex, married households in 
income, assets, and home ownership. This is especially true for 
older lesbians or transgender elders and for LGBT elders of 
color.
    Moreover, LGBT older people struggle with thin support 
networks and severe social isolation. For example, LGBT elders 
are 4 times less likely than older Americans in general to be 
parents, and twice as likely to grow old single, a particular 
challenge given the crucial support that adult children and 
partners provide in old age.
    Partly because of this isolation, LGBT elders are even more 
susceptible to financial abuse than older Americans in general. 
Despite advances in legal protections, LGBT older people are 
one of the most underserved and at-risk populations among our 
nation's older adults, and this is even more true of 
subpopulations. For example, many LGBT older adults are living 
with HIV as they age, reflective of the fact that by 2020, 70 
percent of Americans living with HIV will be 50 and over.
    Many LGBT Hispanic older people report that they suffer 
from multiple layers of discrimination, but they lack the 
community support they need.
    Older LGBT African Americans are at higher risk for serious 
health conditions, like Alzheimer's, and are less likely to 
have access to culturally competent care.
    Transgender elders are more likely to face social and 
geographic isolation, to be denied appropriate healthcare, and 
to struggle from financial insecurity.
    The challenges that LGBT older adults face manifest 
especially when it comes to housing. A 2014 10-State 
investigation found that 48 percent of same-sex, older couples 
seeking senior rental housing experienced discrimination. That 
is 48 percent.
    This data shows the pervasive challenges that older LGBT 
people face when trying to find housing. Yet, despite these 
statistics and the many stories that we have to demonstrate the 
real harm that is done, in most States, LGBT elders are not 
explicitly protected from discrimination based on their sexual 
orientation and/or their gender identity. And as a result of 
rampant discrimination and a lack of legal protections, many 
LGBT elders are forced back into the closet as they age.
    The challenges that LGBT older people face are daunting. We 
at SAGE cannot address them alone. We yearn to once again look 
to the Federal Government as a partner to bring financial 
security and discrimination-free housing, care, and services to 
LGBT elders.
    Unfortunately, through its various anti-LGBT policy moves, 
the Trump Administration presents a powerful impediment to the 
well-being of LGBT older adults rather than a source of 
support. We ask Congress to closely monitor the Administration 
and to reverse those trends because our elders deserve the 
support of all Americans and all branches of our government.
    Thank you.
    [The prepared statement of Mr. Adams can be found on page 
36 of the appendix.]
    Chairman Green. Thank you, Mr. Adams.
    Ms. Conron, you are now recognized for 5 minutes for an 
opening statement.

    STATEMENT OF KERITH CONRON, RESEARCH DIRECTOR, WILLIAMS 
                 INSTITUTE, UCLA SCHOOL OF LAW

    Ms. Conron. Thank you. Thank you, Chairman Green, Ranking 
Member Barr, Chairwoman Waters, and members of the Subcommittee 
on Oversight and Investigations. Thank you for the opportunity 
to speak with you today about housing lending in the LGBTQ+ 
community, a population of 11 million LGBT adults and 2 million 
LGBT youth.
    My name is Kerith Conron. I am the research director for 
UCLA School of Law's Williams Institute, a center that focuses 
on the impact of law and public policy on LGBTQ+ people. As a 
social epidemiologist, my research examines sexual orientation 
and gender identity-based differences in socioeconomic status, 
contributors to those differences, and the consequences of such 
differences.
    A large body of research has found that LGBT people 
experience discrimination and harassment in housing, 
employment, and other domains of life. LGBT adults are twice as 
likely as non-LGBT people to report ever having been prevented 
from moving into or buying a house or apartment by a landlord 
or REALTOR.
    Controlled experiments funded by the U.S. Department of 
Housing and Urban Development found that same-sex couples and 
transgender individuals were less likely to receive responses 
about rental units and were shown fewer rental units than 
others.
    LGBT adults are more likely to report being fired or denied 
a job than non-LGBT adults. They are also more likely to report 
being denied a promotion or receiving a negative job evaluation 
than non-LGBT adults.
    And an extensive body of research shows that LGBT students, 
both in secondary school and in college, are more likely to be 
bullied and otherwise victimized than non-LGBT students. And as 
Dr. Sun will describe, same-sex mortgage applicants are less 
likely to be approved than different-sex loan applicants. 
Discrimination contributes to homelessness and housing 
instability and lower rates of home ownership among LGBT+ 
people.
    These patterns have been observed in convenient sample 
studies for quite some time, but we are now at the point in the 
field where we have population-based representative studies 
that show the same patterns; we have experimental designs that 
show the same patterns; and we also have records from 
administrative complaints. So, these patterns of discrimination 
are undeniable.
    In terms of homelessness and some statistics, LGBT youth 
and transgender adults are far more likely to be homeless and 
unstably housed than non-LGBT youth and adults. Recent analyses 
conducted with the TransPop data, funded by NIH, found that 30 
percent of transgender adults reported that they had to move 
twice or more in the prior 2 years, compared to only 11 percent 
of cisgender. And when I say that, I mean non-transgender 
people.
    LGBT adults are less likely to own homes and are more 
likely to rent than non-LGBT adults. We conducted analyses of 
data collected by the CDC across 35 States in preparation for 
this hearing and found that half of LGBT adults on average own 
their homes, compared to about 70 percent of non-LGBT adults. 
Rates of home ownership are even lower for transgender adults 
at about 25 percent. Homelessness and housing instability 
dramatically increase the risk of violence victimization, 
exploitation, and poor health, and there is literature to 
support this.
    What I have shared with you today relies upon the best 
available data, but gaps in existing Federal data systems need 
to be filled. If questions about sexual orientation, gender 
identity, and assigned sex at birth were included in the 
American Community Survey and the American Housing Survey, then 
the committee could request information about home ownership, 
mortgages, housing and rental costs, and housing quality for 
LGBTQ+ communities directly from the Census Bureau.
    Similarly, if the Survey of Consumer Finance, as conducted 
by the Federal Reserve Board, included similar questions, then 
information about credit usage and refusals, housing and 
educational loans, debts, and assets would also be available to 
the committee.
    Many surveys conducted by the Census include information 
about the sex of married and cohabitating partners. And while 
that is very valuable and was radical to include in those 
surveys in 1990, which is the year that I graduated high school 
and, as you can see from my hair, is now many decades past.
    We now know that only 80 percent of people who are LGBT are 
living in cohabitating households, which means that--sorry, 20 
percent, which means that we are missing data for about 80 
percent of the LGBT adult population by not including questions 
about sexual orientation, gender identity, and assigned sex at 
birth in these surveys.
    In summary, increasing access to affordable housing will 
mean prohibiting discrimination in employment, housing, 
education, lending, and the public accommodations, as well as 
expanding Federal data collection systems designed to monitor 
the public well-being.
    Thank you.
    [The prepared statement of Ms. Conron can be found on page 
49 of the appendix.]
    Chairman Green. Thank you, Ms. Conron.
    Mr. David, you are now recognized for 5 minutes for your 
opening statement.

 STATEMENT OF ALPHONSO DAVID, PRESIDENT, HUMAN RIGHTS CAMPAIGN

    Mr. David. Thank you. Thank you, Chairman Green, Ranking 
Member Barr, and members of the subcommittee.
    My name is Alphonso David. I am the president of the Human 
Rights Campaign, which is the nation's largest civil rights 
organization working to achieve equality for lesbian, gay, 
bisexual, transgender, and queer people. On behalf of our more 
than 3 million members and supporters, I appreciate the 
opportunity to appear at this hearing.
    Tonight, more than 10,000 LGBTQ+ young people do not have a 
safe place to sleep. In some U.S. cities, 30 percent of the 
homeless adult population is LGBTQ+. The faces behind these 
numbers reflect that the most vulnerable members of our 
community are our youth, our transgender siblings, and people 
living with HIV.
    Our community faces discrimination and rejection in every 
area of life: at school; at work; and at home. Distressingly, 
the weight of this discrimination falls disproportionately on 
the shoulders of LGBTQ+ people who are racial minorities, 
specifically Black and Brown members of our community.
    Black male couples are the most likely type of family to 
experience discrimination when seeking rental housing.
    Transgender people feel these stark, racial disparities 
even more acutely. Nearly 40 percent of Black transgender 
people have reported eviction and racial disparities because of 
their gender identity, and report rates of homelessness 3 times 
of that of white transgender people.
    Latinx, Native American, and multi-racial transgender 
people report similarly significant higher rates of 
discrimination.
    Before law school, I volunteered at the Whitman Walker 
Clinic, the LGBT health center right here in Washington, D.C., 
working directly with people living with HIV to receive aid 
through Federal programs. I have seen the impact of a lifetime 
of discrimination in the eyes of people who have met closed 
door after closed door. The epidemic of LGBTQ+ homelessness is 
a national crisis and it demands a national response.
    Unfortunately, we have a President in the White House and a 
Secretary of HUD who are not just ignoring us; they are 
weaponizing our nation and our programs against us. For the 
past decade, HUD has interpreted the Fair Housing Act to 
include protection for LGBTQ+ people. This interpretation is 
consistent with robust, judicial trajectory determining that 
discrimination on the bases of sexual orientation and gender 
identity is unlawful sex discrimination under our nation's 
civil rights laws.
    These Federal court decisions are not just novel outliers, 
but rather markers of the evolution of the judicial 
understanding of discrimination to more faithfully accomplish 
the mission of the underlying statutes. In fact, this is the 
law in half of the circuits in this country. Prioritizing 
ideology over law, the Trump Justice Department withdrew 
specific guidance regarding gender identity discrimination and 
has replaced it with a narrow and legally specious 
interpretation of Title VII that would exclude LGBT workers 
from its protection.
    Trump has promoted this retrograde interpretation in 
Supreme Court briefs. In three cases this term, the Court will 
determine whether Title VII actually protects LGBTQ+ people. 
The outcome of these cases will directly influence the 
interpretation of protections under similar civil rights 
statutes, including the Fair Housing Act.
    Secretary Carson has also narrowly interpreted the rules, 
specifically the rulemaking for Equal Access. This rule 
provides crucial protections from discrimination for LGBTQ+ 
people in HUD programs, including loans backed by the Federal 
Housing Administration (FHA). Access to FHA loans has 
traditionally served as a critical tool to bridge opportunity 
gaps based on discrimination for chronically underserved 
populations, like people who are low income, LGBT, and people 
of color.
    Although the Equal Access Rule has been previously 
interpreted to protect people, LGBTQ+ people, unfortunately, 
this Administration is taking a different tack.
    Secretary Carson's HUD has also placed a target on these 
regulations that have meant so much to people in the past. He 
has proposed replacing tested regulations with a vague laundry 
list that would allow emergency shelters, for example, to 
choose how or whether to serve transgender people.
    LGBT people listening to my testimony today face 
discrimination in almost every facet of their lives, and we 
need the Administration to actually protect them, not to 
subject them to further discrimination.
    Thank you.
    [The prepared statement of Mr. David can be found on page 
59 of the appendix.]
    Chairman Green. Thank you, Mr. David, for your testimony.
    Professor Sun, you are recognized for 5 minutes for your 
opening statement.

STATEMENT OF HUA SUN, ASSOCIATE PROFESSOR, FINANCE, IOWA STATE 
                           UNIVERSITY

    Mr. Sun. Thank you, Chairman Green, Ranking Member Barr, 
and subcommittee members for giving me this opportunity to 
testify. My name is Hua Sun, and I am an associate professor of 
finance at Iowa State University.
    I recently published a paper jointly with my coauthor at 
PNAS that looks at the potential disparate lending practice to 
same-sex mortgage borrowers. We found that compared to 
different-sex borrowers of similar profiles, same-sex borrowers 
are statistically more likely to be rejected when they apply 
for a loan. And when approved, they pay a higher interest rate 
or fees on average. And we are unable to find statistical 
evidence that same-sex borrowers are more risky to lenders than 
comparable hetero-sex borrowers.
    The primary data used in our loan underwriting analysis is 
a 20 percent random sample of the publically available HMDA 
data between 1990 and 2015. It gives us over 30 million loan 
application records that involve both a borrower and a co-
borrower. We used the mandatorily-disclosed sex information to 
distinguish same-sex borrowers and hetero-sex borrowers. We 
then merged the HMDA data with the publically-available Fannie 
Mae single-family loan performance data on over 400,000 
approved loans originated since 2004, and we used this merged 
data to check the financing cost and subsequent loan 
performance.
    Our findings show that compared to hetero-sex borrowers 
with similar characteristics, same-sex borrowers experience 
about a 3 to 8 percent lower approval rate. Further, in the 
loans that are approved each year, lenders charge higher 
interest or fees to same-sex borrowers in the range between 2 
to 20 basis points. Our inferred dollar value on the higher 
financing costs burdened by same-sex borrowers nationwide is 
equivalent to an annual total of up to $86 million. Yet, we 
failed to find any evidence that same-sex borrowers are more 
risky. Indeed, our data shows that same-sex borrowers are 
equally likely to default on a loan, but less likely to prepay 
for their mortgage. So, on average, there is some evidence that 
same-sex borrowers seem to be slightly less risky.
    As sexual orientation is not disclosed in the data, we 
calculated the correlation between our inferred same-sex 
population density and a 2015 Gallup LGBT population survey at 
the State level. We found that, depending on the matter used, 
the correlation is between 0.61 to 0.85.
    As another robustness check, and in order to rule out the 
possibility that a borrower and a co-borrower are relatives, we 
only look at same-sex borrowers who are of different races. We 
continue to find significantly lower approval rate on this 
restricted sample of same-sex borrowers.
    One limitation on HMDA data is its lack of borrowers' 
information, such as credit history. We cross-validated our 
findings of lower approval rate by using the data on the sample 
of borrowers in the Boston metropolitan area in 1990. This data 
was collected by the Federal Reserve Bank of Boston. 
Previously, this Boston-based data has been used by many 
researchers to study minority lending discrimination.
    The strength of this data is that it has very detailed 
information such as a borrower's credit history, working 
experience, educational backgrounds, et cetera.
    The Boston data reveals that after controlling for the 
borrower and the mortgage characteristics, same-sex applicants 
are 73.12 percent more likely to be denied when they apply for 
a loan than different-sex borrowers.
    We also looked at loan underwriting in time series and 
found that the lower approval rate to same-sex borrowers is 
quite persistent over time. Indeed, the HMDA data implies that 
the gap was even larger in 2015 than in 1990.
    In regard to lending practice on agency versus non-agency 
loans, we found that the largest gap is on conventional loans, 
where the gross approval rate to same-sex borrowers is about 7 
percent lower than different-sex borrowers. The gap is about 4 
percent on VA loans, and about 0.8 percent on FHA loans.
    To summarize, our study documents some statistically and 
economically significant evidence on adverse lending outcomes 
to same-sex borrowers. The lending disparity appears to be 
throughout the life cycle from applying to paying off a loan.
    Like any empirical research, our study is subject to 
limitations, such as omitted veritable buyers. Having said 
that, I believe these findings are still concerning given that 
the current credit protection laws, such as the Fair Housing 
Act and the Equal Credit Opportunity Act, do not explicitly 
list sexual orientation as a protection class.
    I hope that our study and this testimony can help initiate 
a meaningful discussion on the need and the means to provide 
stronger protection to LGBT borrowers.
    Thank you very much.
    [The prepared statement of Professor Sun can be found on 
page 66 of the appendix.]
    Chairman Green. Thank you for your testimony, Professor 
Sun.
    Mr. Creighton, you are recognized for 5 minutes.

  STATEMENT OF FRANCIS CREIGHTON, PRESIDENT AND CEO, CONSUMER 
                DATA INDUSTRY ASSOCIATION (CDIA)

    Mr. Creighton. Thank you for the opportunity to appear 
before you today at this historic hearing on a very important 
issue.
    CDIA, my organization, promotes the responsible use of 
consumer data to help all consumers, regardless of age, race, 
gender identity, sexual orientation, or any other 
discriminatory qualifier, achieve their financial goals, and to 
help businesses, governments, and volunteer organizations avoid 
fraud.
    Consumer reporting agencies are governed by many Federal 
and State statutes, rules, and judicial opinions, but the 
touchstone of the laws that govern our industry is the Fair 
Credit Reporting Act (FCRA). According to the law's findings, 
Congress expressly sought to make sure the credit-reporting 
system is fair for consumers, for all consumers.
    As a result of the FCRA, and the hard work of our members 
in the entire credit reporting ecosystem, consumers today 
benefit from a democratic, accurate, and fair credit system. 
Consumers have the liberty to access credit anywhere in the 
country from a wide variety of lenders based solely on their 
own personal history of handling credit. If a consumer has been 
a responsible user of credit in the past, lenders and others 
are more likely to offer credit at the most favorable terms.
    Credit reporting companies and other CDIA members are 
helping solve the problem of the unbanked and the underbanked 
by expanding the kinds of data collected, such as rental 
history or payments on telephone and other utility bills, 
giving lenders and others information that allows more 
consumers to responsibly access traditional financial services 
and integrate consumers into the mainstream financial system.
    Consumers are the main beneficiary of our credit reporting 
system. Most consumers pay their bills on time and are rewarded 
for doing so when they seek out new credit and their report 
shows a positive history. Without the credit reporting system, 
lenders would not be able to judge whether individuals applying 
for credit have previously paid their bills on time, and 
interest rates on loan products would have to increase for 
everyone to account for the added risk, with consumers who have 
been consistently paying bills on time losing out.
    Credit reports also give a variety of different kinds of 
lenders access to the same kind of information, giving a local 
community bank or a credit union a chance to compete against a 
trillion-dollar financial institution.
    As we begin this hearing, it is important to know what is 
and is not in a credit report.
    Credit reports do not include sexual orientation.
    Credit reports do not include gender identity or sex 
assigned at birth.
    Credit reports do not include marital status or spouse.
    They also do not contain data on race, color, religion, or 
national origin.
    Credit reports do include the following identifying 
information: name; address; date of birth; and Social Security 
number, which is only used as an identifier.
    For each account, credit reporting agencies maintain the 
creditor name, account type, account number, date opened, the 
credit line, the balance, and the payment history. And if an 
individual has had a bankruptcy in the last 10 years, that 
appears, as well.
    One of the great benefits of our nation's competitive 
credit reporting system is that it delivers factual 
information, which serves as a check against individual biases 
and assumptions. The reliable consumer report information 
provided by our members gives lenders and creditors the tools 
they need to fairly achieve the goal of equitable treatment for 
each consumer, while also contributing to safe and sound 
lending practices. Without this system, subjective judgments 
could be made even more on factors other than the facts of 
creditworthiness.
    Thank you for the opportunity to contribute to this 
hearing. I look forward to your questions.
    [The prepared statement of Mr. Creighton can be found on 
page 54 of the appendix.]
    Chairman Green. Thank you, Mr. Creighton, for your 
comments.
    The Chair will now recognize the gentlelady from New York, 
Ms. Velazquez, for 5 minutes for questions.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. Adams, as you know, New York City's LGBTQ+ senior 
population struggles with substandard housing conditions, 
poverty, and homelessness, particularly in parts of lower 
Manhattan that I represent. In fact, according to one study, 
nearly one in four of New York City's LGBTQ+ senior population 
was reported living in substandard housing.
    Can you speak to the unique challenges our LGBTQ+ seniors 
face, not only in New York, but across the country? And what 
recommendations do you have for addressing these issues?
    Mr. Adams. Thank you for that important question. And to 
your point, I think what we see is a housing crisis that LGBTQ+ 
older adults face in New York City and across the nation for 
several fundamental reasons.
    One is extremely high levels of discrimination against LGBT 
older adults in housing. As I mentioned in my testimony, we 
have a study from the Equal Rights Center conducted in 2014 
that found that 48 percent of LGBT older adults who were 
applying for senior rental housing are subjected to 
discrimination in that process.
    Then what we see is for LGBT older folks who find housing, 
often they are subjected to harassment, discrimination, and 
mistreatment by their neighbors.
    This challenge is also exacerbated by the fact that we have 
substantially higher levels of poverty among LGBT older adults 
than older Americans in general.
    Ms. Velazquez. Recommendations?
    Mr. Adams. Yes. In terms of recommendations, first and 
foremost, we need to pass the Equality Act, which would 
prohibit discrimination in housing against folks who are LGBT. 
This is fundamental. Eliminating discrimination is critical.
    Second, we need to ensure that there is support for LGBT-
friendly elder housing developments. In New York City, as you 
mentioned, there are two LGBT-friendly affordable housing 
developments that are in construction now. There are a number 
of them across the country. We have to substantially increase 
the number of those.
    And third, I would say that we need policies that encourage 
and mandate training for housing providers to ensure that they 
do not engage in discrimination and that they provide 
culturally competent housing to LGBT elder adults.
    Ms. Velazquez. Thank you.
    Mr. Adams. Thank you for the question.
    Ms. Velazquez. Professor Sun, your research study found 
significant and costly discrimination in mortgage lending to 
LGBTQ+ borrowers, with same-sex borrowers facing lower approval 
rates and higher interest fees than different-sex borrowers.
    First, can you explain your findings? And second, what 
impact do these lending patterns have on the financial security 
of same-sex couples and the lifestyle choices they make?
    Mr. Sun. According to our study, same-sex borrowers on 
average experience about a 3- to 8-percent lower approval rate, 
which implies that the homeowner rates for same-sex couples are 
likely to be lower, in a similar range.
    And also, once their loan is approved, they pay a higher 
interest rate or fees, so their effective interest rate is 
about 2 to 20 basis points higher than the hetero-sex 
borrowers.
    So, we infer that nationwide, the annual actual premium 
charge to same-sex borrowers is somewhere between $8.6 million 
to $86 million.
    Ms. Velazquez. Thank you. Professor Sun, earlier this year, 
I introduced H.R. 963, the Home Loan Quality Transparency Act 
of 2019, which reinstates the Dodd Frank Act's expanded HMDA 
reporting requirements that were stripped out last year as part 
of the passage of S.2155. Senator Cortez Masto has introduced 
companion legislation in the Senate.
    Can you talk about the importance of HMDA's reporting 
requirements and how, without HMDA finding and prosecuting 
discriminatory lending practices, will be far less effective?
    Mr. Sun. First of all, I do want to point out that HMDA 
data is very crucial when we try to examine the disparate 
lending practice to like same-sex borrowers or minority 
borrowers. However, using mortgage data can be misleading if 
our purpose is to study the more general demographic patterns 
of LGBT people in general.
    Having said that, in the HMDA data, right now the biggest 
limitation with the HMDA data is that it does not have a lot of 
mortgage characteristics, information like loan to value ratio, 
debt to income ratio, and it does not have a lot of information 
about the borrower, such as the borrower's credit score, 
working histories, age, et cetera.
    As an empirical researcher, that makes it very difficult 
for us to draw any--like a causal impact or potential disparate 
lending practice to this group.
    Ms. Velazquez. I gather that you will be supportive of my 
legislation?
    Chairman Green. The gentlelady's time has expired, long 
since. You may answer. You may respond.
    Mr. Sun. Sorry. I missed the question.
    Chairman Green. The question was, would you support her 
legislation?
    Mr. Sun. Definitely.
    Chairman Green. The gentlelady yields back.
    Ms. Velazquez. Thank you. I yield back.
    Chairman Green. The Chair now recognizes the gentleman from 
Florida, Mr. Posey, for 5 minutes.
    Mr. Posey. Thank you, Chairman Green, for holding this 
hearing today.
    I believe Americans want a fair financial system where 
access to credit and mortgage finance is determined by 
creditworthiness and absolutely free from bias that has nothing 
to do with a person's ability to repay the loans they seek. 
That is a principle that I supported in all the considerations 
we hear before this committee. And perhaps the best way to 
ensure that our financial system is unbiased is to ensure that 
the information that supports the decisions is free from bias.
    I am pleased that we have here today Mr. Creighton, the CEO 
of the Consumer Data Industry Association, that represents the 
credit reporting agencies that provide the information I have 
in mind here.
    Mr. Creighton, I had the opportunity to look at the report 
by Dr. Ann Schnare, entitled, ``Credit Bureaus in the Digital 
Age: Recommendations for Policy Makers.'' It was released by 
the Consumer Data Industry Association (CDIA). I commend your 
efforts to focus attention on consistent and integrated 
standards and regulations for credit reporting.
    The study makes some interesting observations about the 
benefits of credit bureaus. One of those benefits is ensuring 
credit availability and economic resiliency by giving lenders 
the information they need to assess the risk of potential new 
borrowers, and to design and price products to meet the needs 
of previously underserved populations.
    Focusing on the last part of that, can you share with us 
how good credit bureau data helps to design and price products 
to meet the needs of the previously underserved?
    Mr. Creighton. Thank you for that question, Congressman.
    There are really two areas that I would mention as part of 
this. One is the continued exploration by our members and 
trying to get non-traditional data into credit reporting: 
things like rental data, are you paying your rent on time, 
every month; utility data, are you paying your gas bill and 
your electric bill?
    These are not traditionally thought of as credit accounts, 
right? But if you are paying your bill every month on time for 
10 years, that should be an indicator that in fact you are 
going to be able to pay your credit bills on time later.
    That expands the people who can get access to credit 
because you have a population right now who is not being served 
because they do not have a traditional credit card or something 
else. So, when they need a financial product, they cannot go to 
a bank or somewhere else because they have a thin file or no 
file. That's one way.
    Another way is by doing something called trended data. 
Instead of just looking at a credit report in just a snapshot 
moment of your credit history, where are you right now, by 
using something called trended data, we are able to look back 
over time and to see how all of your credit accounts are 
moving. For example, if you have a spike in your credit at this 
moment, but it is explainable because of other things in the 
past that can be incorporated into the score.
    Mr. Posey. Good. Thank you, Mr. Creighton.
    Is the information provided through credit bureaus 
completely free of the kind of information that might enable 
the discrimination we are hearing about today in this 
committee?
    Mr. Creighton. Yes, it is, and that is not to say that 
there is not discrimination in the entire system. All that we 
are able to say is that it is not being provided at this point 
in the process by the consumer reporting system.
    Mr. Posey. Okay.
    Mr. Creighton. As I said in my opening statement, we just 
do not have this data, and we would not want to collect it.
    Mr. Posey. Okay. Thank you.
    We have had several hearings on perceived bias in financial 
institutions based on membership in various groups of the 
population. I am always puzzled that competition among lenders 
does not simply drive out discrimination of that nature. There 
are lots of alternative lenders in the market.
    Do you believe that market competition is or can be an 
effective force in reducing or eliminating bias in lending?
    Mr. Creighton. Sure. Absolutely. If there is a market that 
is not being served because of discrimination, I believe that 
other lenders will likely come in and take advantage of that 
and provide products and services to that group. I do not 
represent lenders, so I cannot say specifically, but sure, that 
does make a lot of sense.
    Mr. Posey. Can you think of any examples offhand?
    Mr. Creighton. I think about, in the small business space, 
what is going on in Fintech right now and how the Fintech 
companies are in there kind of offering new financing tools to 
people in the small business space that otherwise, those 
communities were not getting served. It's relatively small-
dollar loans. That is one example of where.
    Mr. Posey. That is good to hear, that the market can 
actually change processes like that. I see my time has expired, 
Mr. Chairman. I yield back. Thank you.
    Chairman Green. The gentleman yields back.
    The gentleman from Illinois, Mr. Casten, is recognized for 
5 minutes.
    Mr. Casten. Thank you, Mr. Chairman. And thank you all so 
much for being here today.
    I am really struck by Mr. David's comments that 40 percent 
of homeless youth identify as LGBTQ+. And if I understand 
right, I think one-third of all transgender folks have 
experienced homelessness at some point in their life. For so 
many, the shelters are really the last refuge, and especially 
the government-funded shelters.
    And I am particularly concerned in light of that, about 
some of the decisions that have been made in light of the Hobby 
Lobby decision, to essentially legally allow discrimination as 
long as we wrap it up in some kind of a religious theory.
    In particular, there have been two recent decisions. First, 
the Department of Housing and Urban Development's draft rule 
that would allow shelters to house people while considering the 
shelter administrator's religious beliefs and the individual's 
sex as reflected on official government documents.
    And then second, on August 14th of this year, a Department 
of Labor draft rule that essentially used the Hobby Lobby to 
justify hiring, which, at least as I read it, would affect 
government housing and decisions that are made there.
    Ms. Tobin, is there any evidence that allowing transgender 
people into homeless shelters conforming with their gender 
identity poses a risk to other residents?
    Ms. Tobin. No, there is none, Congressman.
    Mr. Casten. What about for the broader LGBT community?
    Ms. Tobin. No, there is none. And, in fact, we have, as I 
said, decades of experience across the country that what 
protections like the Equal Access Rule result in is simply that 
some people, who did not have the opportunity before, have the 
opportunity to come out of the cold and be connected with 
shelter, and ultimately with permanent housing.
    Mr. Casten. Is there any evidence that forcing transgender 
people onto the streets or into shelters that do not conform 
with their gender identity causes harm to themselves or others?
    Ms. Tobin. Of course. The whole reason we invest in 
emergency shelter is because we want people to be safe, to be 
healthy, to be able to connect with permanent housing. And it 
does not make any sense to cut a large portion of the 
population out from those programs when Congress has directed 
HUD to ensure that every American has access to decent shelter.
    Mr. Casten. Would you describe a decision to refuse shelter 
to a member of the LGBTQ+ community as merciful?
    Ms. Tobin. I would not. There is nothing more important in 
most faith traditions than loving your neighbor and serving 
people in need. And there are scores of faith-based 
organizations around the country, from San Diego to Boise to 
programs that Covenant House runs across the country, that 
serve transgender people in accordance with their gender 
identity every day. And we know that there are some who, for 
various reasons, refuse to serve our community. And we respect 
everyone's beliefs, but ultimately, HUD taxpayer funds are 
first and foremost for serving everyone in need.
    Mr. Casten. Are you familiar with the Sermon on the Mount?
    Ms. Tobin. Yes, Congressman.
    Mr. Casten. Would you care to comment on how one can 
justify a decision to discriminate based on a book that blesses 
the merciful, the meek, the persecuted, and the peacemakers?
    Ms. Tobin. Sir, I am certainly not here to take issue with 
anyone's theology. But I would hope that we can all agree that 
the--as I said, the foundations in most faith traditions are 
serving people in need. Most faith-based organizations see no 
issue with complying with these non-discrimination rules. And 
again, first and foremost, our taxpayer funds are to serve 
everyone who is in need. And that should really be the deciding 
factor.
    Mr. Casten. Thank you. I yield back.
    Chairman Green. The gentleman yields back.
    Ordinarily, the Chair would recognize someone from the 
other side. However, given that we have been informed that 
there are no more Members present from the other side, the 
gentlewoman from Pennsylvania, Ms. Dean, is recognized for 5 
minutes.
    Ms. Dean. Thank you, Mr. Chairman, and I am pleased to be a 
part of this historic hearing. Thank you to all the witnesses 
for your expertise and for bringing us important information.
    I would like to start with Dr. Conron. In your testimony, 
you write that homelessness and housing instability 
dramatically increase the risk of violence victimization, 
exploitation, poor health, incredibly grave circumstances for 
the community. Could you highlight some of the data and the 
statistics that you are citing?
    Ms. Conron. Sure. When people do not have stable places to 
stay, they are in circumstances where they are on the street, 
where they are subject to increased risk of violence 
victimization and/or they are at risk of needing to exchange 
sex for a place to stay. And when people engage in sex work, 
they are at increased risk of STI infection, HIV infection, and 
violence. They are at increased risk of being picked up by the 
police and then further victimized by the police and being 
charged with sex work crimes.
    We see an overrepresentation of LGBT people in the criminal 
justice system. We see an overrepresentation of LGBT people who 
are poor, and food insecure, particularly bisexual, transgender 
people, and LGBT people of color communities. And, so, it is 
really this systematic, pervasive pattern of stigma 
discrimination that elevates risk for vulnerability at lots of 
points in the life course, and particularly for youth and 
particularly for transgender adults.
    Ms. Dean. Thank you very much.
    Mr. David, in your testimony, and it has been talked about 
here, you stated that 40 percent of homeless youth identify as 
members of the community.
    I am also lucky to serve on the Diversity and Inclusion 
Subcommittee. And this summer, we held diversity and inclusion 
roundtables, one in particular on LGBTQ+ individuals. During 
that event, a leader of the PA Youth Congress described working 
with a college student who was being evicted because his same-
sex partner, also a caretaker because the student has MS, was 
not on the original lease.
    Given that kind of consequence, can you talk about other 
similarly situated in that kind of discrimination?
    Mr. David. Sure. Unfortunately, we are seeing across this 
country LGBT people being targeted for discrimination, not only 
in terms of lending practices, but also mortgages and rentals, 
as well. And unfortunately, because we do not have 
comprehensive protections that are on the State level, and we 
certainly see that the Federal protections are being challenged 
in the U.S. Supreme Court, LGBT people are at risk of being 
discriminated against.
    The Administration, unfortunately, as you know, has taken a 
position, the Trump Administration, to advance regulations that 
would effectively enshrine discrimination into our regulations, 
and it further exacerbates a problem because LGBTQ+ people are 
facing discrimination every single day. A same-sex couple who 
is seeking to purchase an apartment in any part of this country 
may be discriminated against simply because they are LGBTQ+. If 
they are racial minorities, it is even worse.
    And so, we need to pass the Equality Act, and we also need 
to fight back against these regulations that are seeking to 
enshrine discrimination into our regulations.
    Ms. Dean. Thank you, and I want to stick with you if I 
could, Mr. David.
    I share with you your grave concern over the course of this 
Administration, and I was sitting here thinking about it. The 
pattern is always the same, whether we are talking about 
anything from the environment to equality, and everywhere in 
between, the Trump Administration seeks to tear down 
protections, tear down the things that actually would make us 
more equal, would make us more safe, would protect our planet, 
as I said, and everywhere in between. They want to strip away 
protections.
    You began in your testimony to talk about how we could make 
a change. Number one, pass the Equality Act. What specifically 
do we need to do as policymakers?
    Mr. David. We need to pass the Equality Act. I know the 
House of Representatives has already passed the Act.
    Ms. Dean. Correct.
    Mr. David. We are waiting on the Senate to take action. And 
that bill would effectively provide protections, comprehensive 
protections, on a national level.
    Right now, we have circuit court decisions for the past 2 
decades that have concluded that LGBTQ+ people are indeed 
protected under Title VII. What many people do not know is that 
there is no Federal public accommodation statute that would 
protect racial minorities, as an example. So, if I went into a 
Gap department store to purchase a shirt, I could be 
discriminated against, and there is no Federal protection based 
on race. There are State protections, but no Federal 
protection. The Equality Act would fix that.
    And we also need to make sure that--as I said before, the 
Equal Access Rule has been in place for years. There is no 
reason to modify the Equal Access Rule, and modifying the Equal 
Access Rule will have disproportionately negative impacts on 
LGBTQ+ people and racial minorities.
    Ms. Dean. Thank you for helping us lift up the Equality 
Act. We were proud as members of this committee--
    Chairman Green. The gentlelady's time--
    Ms. Dean. --in the House--
    Chairman Green. --has expired.
    Ms. Dean. --to pass it. Thank you, Mr. Chairman.
    Chairman Green. The gentlewoman from Texas, Ms. Garcia, is 
recognized for 5 minutes.
    Ms. Garcia of Texas. Thank you, Mr. Chairman, and thank you 
so much for convening this very important and historic hearing 
on this topic.
    I think it is a topic that has been of great concern for 
many of us. And certainly coming from Texas and being a leader 
against the fight, the Texas Bathroom Bill, we all know that--
at least I am convinced--that part of the reason that many 
people have some of these views and do discriminate is because 
they simply fear the unknown. Many of them that we talked to 
during those hearings had never even sat down and visited with 
anyone who was transgender. They had not even met anyone who 
was transgender. They did not even know what it meant. Hence, 
the fear about the bathrooms.
    So, I think it is moving in the right direction, but I 
wanted to get to the heart of it because, as Ms. Dean said, it 
is really about how do we protect the protections, if you will, 
and how do we move forward.
    Mr. Adams, I was a geriatric social worker in one of my 
prior lives, and I remember going into a nursing home where 
there was an elderly person who was, quite frankly, in need of 
psychiatric counseling because they felt completely isolated 
because nobody wanted to be their roommate--it was back in the 
day where, especially in Medicaid-funded facilities, you always 
had to have someone in the room, it was two to a room--because 
the person was gay. And the recreation area was like nobody 
really wanted to play with her. She was shunned, stigmatized.
    Have we made any progress in that area, or are we still 
faced with a lot of overt discrimination like that?
    Mr. Adams. We have made--
    Ms. Garcia of Texas. In particular in the elder area, in 
nursing facilities and homeless shelters, et cetera?
    Mr. Adams. We have made some progress in those areas, in 
part because of policy progress at the State level. We have a 
couple of States across the country that have enacted laws 
requiring what we sometimes call cultural competency training 
to train provider staff in how to address the kinds of 
situations that you are describing. And we have a growing 
national program that provides that kind of training in nursing 
home settings to long-term care providers. So, yes, we have 
made some progress.
    Having said that, this challenge of discrimination and 
stigmatization of LGBT elder adults in nursing care, in long-
term care, is a profound challenge, and we still have much, 
much further to go. And, in fact, what we are seeing is that 
upwards of 40 percent of LGBT elder adults hide their sexual 
orientation, hide their gender identity, if they are able to, 
in order to protect themselves from that kind of 
discrimination. So, they are being forced back into the closet 
late in life.
    So, we are making some progress, but we have much, much 
further to go, and we need anti-discrimination protections and 
training to continue to make that progress.
    Ms. Garcia of Texas. Will the Equality Act help any in 
regard to some of the funding for some of these services in 
nursing homes and other social program networks?
    Mr. Adams. The Equality Act will absolutely help because it 
will prohibit discrimination in public accommodations, which 
includes long-term care, on the basis of sexual orientation and 
gender identity. So, it will provide that regime of legal 
protections that we need.
    And then there are other avenues that we can use, like the 
Older Americans Act, to provide funding and support for related 
services.
    Ms. Garcia of Texas. Mr. Adams, do you think that the 
Equality Act and/or the Title VII cases will help to ease the 
burdens of some of the issues related to pensions, social 
security, and retirement benefits for same-sex couples?
    Mr. Adams. I think that with regard to Title VII cases, it 
depends, obviously, on how they are decided by the Supreme 
Court. What we see when it comes to LGBT older adults is that 
the cumulative impact of a lifetime of discrimination in 
employment and hiring and compensation and government-sponsored 
benefits leads to much higher levels of poverty as people enter 
their old age. If we receive a decision from the Supreme 
Court--
    Ms. Garcia of Texas. But the question is, do you think that 
the Equality Act will help ensure that with a same-sex couple, 
there will not be any issues about any of the spousal benefits, 
any of the retirement benefits, and that they will have greater 
financial security?
    Mr. Adams. Yes. The Equality Act will absolutely, if 
enacted, lead to greater financial security for LGBT people in 
general, and LGBT elder adults more specifically.
    Ms. Garcia of Texas. And very quickly--
    Chairman Green. The gentlelady's time has expired.
    Ms. Garcia of Texas. Do we need to ask the question on the 
Census?
    Chairman Green. The Chair now recognizes the gentlewoman 
from Massachusetts, Ms. Pressley, for 5 minutes.
    Ms. Pressley. Thank you, Mr. Chairman, for hosting this 
critically important, again, and historic and timely hearing, 
and thank you for waiving me onto this subcommittee to be a 
part of this conversation.
    Our forever Oversight chairman, Elijah Cummings, often said 
that sunlight is the best disinfectant, so I am pleased to see 
our Financial Services Subcommittee on Oversight and 
Investigations shedding light on the continued discrimination 
and injustices subjected onto our LGBTQ+ neighbors and 
community members.
    I am proud to say that the Commonwealth is home to the 
second largest LGBTQ+ community in the nation, and for decades, 
our Commonwealth has led the way in securing equality and 
justice for our LGBTQ+ community.
    In 1989, after a nearly 20-year fight, the Commonwealth 
became the second State in the nation to pass a law prohibiting 
discrimination based on sexual orientation in employment, 
housing, and other public accommodations. In 1989.
    In 2003, we became the first State to legalize same-sex 
marriage. And while our track record is laudable, disparities 
persist.
    One in five LGBTQ+ individuals across our country live in 
poverty.
    One in three transgender individuals and cisgender bisexual 
women are living below the poverty line.
    LGBTQ+ youth of color in the greater Boston area are 
disproportionately more likely to be unemployed.
    Almost two-thirds of transgender individuals across the 
Commonwealth report experiencing discrimination in public 
spaces.
    We know these problems are interconnected, and the solution 
must also operate from a level of intersectionality in order to 
address these negative outcomes for one's health, safety, and 
overall prosperity.
    Because the quest for equality and justice does not stop at 
the stroke of a pen and the passage of a bill, it takes 
continued work to ensure compliance and to hold industry and 
bad actors accountable when they are breaking the law. This is 
even more important now as we face an Administration set on, 
quite literally, terrorizing the LGBTQ+ community. So this 
hearing, again, is timely.
    And I am wearing another hat because I also have the honor 
of vice-chairing the Aging and Families Task Force. And, so, 
one of my priorities on this task force is to develop policies 
that are nuanced and that speak to the life experiences of our 
seniors, especially those who are, sadly, re-closeting, just 
for the purposes of having housing. So, LGBTQ+ justice is 
senior justice, and senior issues are LGBTQ+ issues.
    In 2012, the Commonwealth's Executive Office of Elder 
Affairs was the first to designate LGBTQ+ elders as a 
population of greatest need under the Older Americans Act. 
Again, in many ways, the Commonwealth--and I am representing 
the Massachusetts 7th--I am proud to say we are leading, but 
these inequities and disparities exist and they persist.
    We have spoken about the impact of the Equality Act and 
what that could do. But in an effort to continue to shine some 
sunlight here on the extent of these injustices, Mr. Adams, 
thank you so much for speaking to the impact of having fewer 
assets and less capital in retirement savings, and speaking to 
isolation, and limited opportunities for long-term care and 
senior housing.
    But I just want us to speak, and Ms. Tobin, if you would, 
more to the social impact of this. This is traumatic. The 
community is being terrorized, and so, I hope that the Senate 
will do their job, and we will continue to organize to 
unfortunately have to force their hand to do that. But if you 
could just speak more to the confluence of all of those mini 
hurts. What is this impact?
    Ms. Tobin. Congresswoman, it will take years, I think, to 
understand the true scope of the harms done by the government's 
turning on a vulnerable minority of Americans, and in fact, of 
course, many vulnerable minorities of Americans, in this way.
    We know even the FBI's woefully incomplete hate crime 
statistics have been spiking.
    We know that we hear from more and more parents and 
families and students around the country all the time who are 
scared because the atmosphere created by this--the President 
did not create this kind of hate, but he does seem to be 
feeding it every day.
    And it is very scary for families that we hear about every 
day. We already see many transgender people, as I have said, 
who are homeless and afraid to seek shelter, and the kinds of 
steps that HUD is taking could further deter people and leave 
them out on the streets, vulnerable to violence. We are aware 
already of many cases of transgender people, transgender women 
on the street, being targeted for violence. So, it is very 
serious.
    Ms. Presley. That is my time. I hope there will be a second 
round. Thank you.
    Chairman  Green. The gentlelady's time--
    Ms. Pressley. Thank you for being here.
    Chairman Green. --has expired. The gentlewoman from 
Virginia, Ms. Wexton, is recognized for 5 minutes.
    Ms. Wexton. Thank you, Mr. Chairman, for yielding, and I 
thank you also for holding this very important hearing. And 
thank you to the witnesses for appearing today.
    As a few of you have already mentioned in your testimonies, 
HUD Secretary Ben Carson testified here before this committee 
in May, indicating that the Agency was not considering revising 
the Equal Access Rule. In fact, he unequivocally told me on the 
record, ``I am not currently anticipating changing the rule.'' 
But the very next day, HUD released a proposed rule that would 
roll back the Equal Access Rule's essential anti-discrimination 
protections for transgender people experiencing homelessness.
    The Equal Access Rule protections are critical because they 
ensure that transgender people can access HUD-funded shelter 
consistent with their gender identity. There is a lot of 
misinformation out there, and I think it is important that the 
public understand the implications that rolling back these 
critical protections would have on the transgender community.
    Ms. Tobin, how were transgender people seeking safe shelter 
treated before the Equal Access Rule was put in place?
    Ms. Tobin. As I said, Congresswoman, our research and that 
discussed by the other witnesses has found discrimination of 
both staggering levels of homelessness among the populations, 
so the need is extraordinary, and widespread discrimination in 
shelter access.
    We certainly have seen through the efforts of State and 
local communities and leaders in the field, together with the 
Equal Access Rule, has helped quite a bit. And we do think that 
most, programs today are moving solidly in the direction of 
welcoming people without discrimination, which is why it is all 
the more important that we not go backwards when the risks that 
people face being put out on the street are so serious.
    Ms. Wexton. And following up on that, I know that you had 
talked a little bit earlier about how housing transgender 
people according to their gender identity does not endanger the 
safety of others.
    How about privacy? Secretary Carson, you may remember, said 
something about big, hairy men being threatening or invading 
the privacy of women in shelters. Can you explain whether this 
is founded or what you have found with regard to privacy?
    Ms. Tobin. I am glad you asked. The Equal Access Rule 
actually requires shelters to have policies and procedures and 
to respond to any privacy concern raised by any resident, and 
that is, in my experience, what shelters do. And it is because 
of that, that the National Task Force to End Sexual and 
Domestic Violence has strongly supported these protections.
    Shelter providers have found that this is absolutely not an 
issue. In fact, when I was at a community forum you held, 
Congresswoman, some months ago, we spoke with a woman there 
from down in Winchester, who said she had been turned away at 
one point from a women's shelter, forced to stay as the only 
woman in a men's shelter, where she was a target for sexual 
harassment because she so obviously stuck out, and later was 
welcomed into a women's shelter, and said the only time that 
being transgender even came up during the time she stayed 
there, sharing a room with several other women, was when 
several of the other women that she had met and befriended 
there said to her that they were inspired by getting to know 
her, and that she was persevering in the face of all the same 
struggles that they all faced, with homelessness and dealing 
with the stigma of being transgender on top of that, and they 
found that inspiring. And that was the only way that her being 
transgender even came up staying in a women's shelter and 
sharing a room together. So, that is very much reflective of 
what we hear from across the country.
    Ms. Wexton. HUD also announced changes to its Continuum of 
Care program in its 2019 Notice of Funding Availability, or 
NOFA. The 2019 NOFA removes all prior mentions of LGBTQ+ 
people, including incentives to promote effective services to 
transgender people experiencing homelessness. It also removes 
any mention of the 2016 Equal Access Rule.
    Ms. Tobin, can you explain how these changes to the NOFA 
affect transgender people experiencing homelessness?
    Ms. Tobin. This is part of a pattern, even before HUD 
revealed its plan to roll back the rule, to gut it, to stop, to 
pull back everything, guidance, notices, everything that 
informs providers and shelter-seekers about the rule and their 
rights and helps people understand how to implement it and, in 
essence, gives a green light to discrimination.
    Now, I don't think most providers, fortunately, are going 
to take them up on that, but some will. And that really means 
that people could be out in the cold and facing a lot of risks, 
which is exactly what HUD's programs have been established by 
Congress to prevent.
    Ms. Wexton. Thank you very much. I yield back.
    Chairman Green. The gentlelady yields back.
    The Chair now recognizes the gentlewoman from Michigan, Ms. 
Tlaib, for 5 minutes.
    Ms. Tlaib. Thank you, Mr. Chairman. And thank you all so 
much for being here.
    The Detroit Free Press published a story about a local 
resident who is transgender. In 2015, Emani Love, a 22-year old 
outreach coordinator and worker at a program for homeless and 
disenfranchised LGBTQ+ youth, legally changed her name, and she 
was able to get the new name on her State ID. However, the 
clerk refused to change the gender. Over the years, the State 
of Michigan's refusal to issue her correct ID has led to 
numerous humiliating and uncomfortable situations.
    Emani's story is like other individuals in the trans 
community nationwide. The transgender community not only has to 
go through the difficulty of discrimination and violence 
before, during, and after transitioning, but they also face 
discrimination from their employers and from their communities, 
as you all know.
    Worse, they face challenges from the government that is 
tasked with protecting them by having to fight for legal 
documentation that reflects their gender in name, a basic right 
indignity that gender individuals are granted every day.
    Question for Ms. Tobin: Can you talk about those kinds of 
challenges, as well as associated costs and processes the 
transgender community faces when making gender name changes on 
legal documentation?
    Ms. Tobin. I am glad you asked that, Congresswoman. 
Transgender people do face many challenges. We all increasingly 
have to use ID every day for all sorts of things including 
accessing housing, employment, healthcare, and services. And 
for trans people who cannot easily get those documents updated 
and accurate, it can expose them to discrimination, harassment, 
and all manner of problems.
    States across the country are making rapid progress in 
improving those procedures, but there are still significant 
barriers. And one of the problems with HUD's proposal to gut 
the Equal Access Rule is that it would actually go in exactly 
the opposite direction of the Housing First approach that 
experts in the field support, and HUD has until recently 
supported, by encouraging shelters to adopt strict requirements 
about ID and scrutinizing whether people's ID matches their 
gender presentation and so forth.
    That would just increase barriers to shelter, not just for 
a minority of people who are at increased risk and need, but 
really for everyone. We should be reducing barriers to 
accessing emergency shelter, not increasing them.
    Ms. Tlaib. And Mr. David, what role does proper legal 
identification play in the process of finding safe housing?
    Mr. David. Unfortunately, as Ms. Tobin mentioned, it has 
become a huge problem. Many members of the transgender 
community face additional obstacles simply getting access to 
housing, whether it be transitional housing or permanent 
housing. And if you are seeking to apply for a mortgage or you 
are going through the lending process and your vital documents 
do not actually correspond to your gender expression, you face 
additional obstacles, which is one of the reasons why we are 
pushing so hard to pass the Equality Act. We need to make sure 
we enshrine those protections in statute. We do have some 
protections through judicial decisions, but we do not have them 
in statute on the Federal level.
    But members of our transgender community, because in some 
States they do not allow transgender members to change their 
vital documents because they do not recognize their gender 
identity and expression, that is an additional obstacle that 
they have to face.
    Ms. Tlaib. I represent the third poorest congressional 
district in the country, and nearly one-third of the 
transgender people in Michigan, 30 percent, are living in 
poverty. We continually talk about economic opportunities, 
jobs, and so forth, to try to combat poverty.
    And I don't know, Ms. Tobin or Mr. David, if you can talk a 
little bit about--because one of the things that I did is we 
reached out to a center that helps a lot of my youth through 
the transition, trying to create care. And it always comes down 
to the stuff that we don't talk about enough here, which is the 
documentation that helps and gives us a role as government to 
allowing easy access to that, right? It's pretty simple.
    I want to talk about how, for me, as a Member of Congress, 
am I able to really combat poverty in the transgender community 
if I cannot even get them the documentation that they need?
    Chairman Green. The gentlelady's time has expired. We will 
have a second round, and you will be permitted to take up your 
question in the second round.
    At this time, the Chair will recognize himself for 5 
minutes.
    Is it fair to say that market-based solutions will not 
prevent the invidious discrimination that is continuing 
currently? If you agree, would you kindly raise your hand, that 
market-based solutions will not prevent the invidious 
discrimination that is occurring now?
    All hands have been raised. Let the record so reflect.
    Is it fair to say that credit reports do not prevent 
intentional invidious discrimination? Credit reports do not 
prevent it? If you agree, would you raise your hands? A credit 
report.
    Let the record reflect that all hands have been raised.
    I am doing this because invidious discrimination is 
irrational. It makes no sense. And because it makes no sense, 
you cannot prevent it with something as simple as a credit 
report because people do it with intentionality. There are 
people who do not like us because they do not like the way we 
look, in my case, or because they perceive a person to be of a 
certain sex. It is irrational, and that kind of irrationality 
has to be circumvented with more than legislation that provides 
a civil remedy. Going to court is a great remedy if you have 
the money, if you have the lawyers. If you can perfect 
litigation, that can be efficacious.
    It is my belief that we need criminal penalties. People who 
steal money from you at the bank can suffer from criminal 
penalties, penalties associated with fines and time in jail. I 
do not want to manage invidious discrimination; I want to end 
it. And one of the best ways to end it is with legislation that 
will penalize people who intentionally, and knowingly, 
discriminate against persons, and do so currently with a 
certain degree of impunity.
    I have a bill, H.R. 166, the Fair Lending for All Act. This 
legislation carries with it penalties and fines so that persons 
who intentionally, knowingly discriminate will suffer more than 
some civil penalty leveled against the institution. People who 
discriminate have to be called out. They have to be dealt with. 
It is time for us to move to the next level in this fight, and 
the next level includes criminal penalties for stealing, for 
the theft, of my opportunity to have a loan.
    This is more than simply a slap on the wrist, and I 
understand it. But we have to do it because, quite frankly, 
lending institutions sort of ignore these laws, and people are 
finding themselves having to come out of pocket with huge sums 
of money to fight this invidious discrimination.
    I want you to take a look at my bill, H.R. 166, if you 
would, and send back to me your comments in terms of how you 
think it can impact what we are trying to accomplish with 
invidious discrimination.
    I am also going to--because of the landmark nature of this 
hearing and the empirical evidence that has been presented--
place all of your statements not only in this record, but also 
on my website. I want people to have access to what you have 
said. The evidence is unbelievably overwhelming, and we ought 
not just have a hearing today and let this be the end of it. 
This information has to be received and transmitted across the 
length and breadth of the country so that people will 
understand that what we are dealing with is real and that 
people are being impacted on a daily basis by this level of 
invidious discrimination. I will place it on my website at 
algreen.house.gov and persons can go to that website and you 
will find all of these statements--algreen.house.gov.
    With this said, I am going to yield back the balance of my 
time and recognize the gentlelady from Texas, Ms. Garcia, for 
an additional 5 minutes.
    Ms. Garcia of Texas. Thank you, Mr. Chairman. Thank you for 
the opportunity to ask two more questions that I had that, 
because of time in the first round, I could not do.
    I want to ask Ms. Conron and Professor Sun the question 
about the Census. Do you think that it would be helpful, and 
for what reasons? In what areas would it be helpful to get a 
question on sexual orientation or gender identity on the 
Census?
    Ms. Conron. Thank you for the question. It would be 
unbelievably helpful to get questions about sexual orientation, 
gender identity, and assigned sex at birth on the U.S. Census, 
as well as other surveys that are managed by the Census Bureau, 
like the American Community Survey, the current population 
survey, the surveys about housing, and so on and so forth.
    These surveys are critical sources of information about 
socioeconomic status. They provide information about housing, 
information about employment, occupation, income, wages, and 
they really are critical for monitoring discrimination against 
people on the basis of all sociodemographic characteristics.
    It would be a tremendous help to get these questions on the 
surveys, and frankly, it is a long time coming. We have about 
20 years' experience collecting these data, and there really is 
no reason not to put these items on the Census and these other 
surveys at this point in time.
    Thank you.
    Ms. Garcia of Texas. Professor Sun?
    Mr. Sun. Thank you. I agree with Dr. Conron that the Census 
definitely should collect more information in this regard.
    Although, they have started collecting some of the 
information since 1990, so they provide some like percentage of 
same-sex population at the neighborhood level up to like the 
ZIP Code or block level. But certainly more information, more 
detailed information in terms of demographics of same-sex 
people, would be very beneficial.
    Ms. Garcia of Texas. Right. And Mr. David, with regard to 
this topic, it would take more than just the Equality Act or 
any of the Title VII cases in process; it would take action 
from Congress?
    Mr. David. Correct. Additional action from Congress to 
ensure that this information is actually enshrined in the 
Census.
    Ms. Garcia of Texas. Right. Have you all met with or 
visited with the Census Bureau folks on this issue?
    Mr. David. I have had conversations with the Census Bureau 
on this issue in the past. I do not know whether or not their 
views have changed. Their initial views were not 
accommodating--that is probably the best word to use--but we 
will continue to have those conversations.
    Ms. Garcia of Texas. Ms. Tobin, I wanted to follow up on 
some of the questions that Ms. Tlaib brought up with regard to 
the data and getting your birth certificate changed for the 
gender marker.
    This is not only troublesome in many States--and I know in 
Texas, it is. It is not only troublesome; it is burdensome. You 
have to go to court. You have to have an affidavit from a 
doctor. It is a long process. And, in fact, it is so 
troublesome that in Harris County, my home county, and the home 
county of the Chair of this subcommittee, there was no judge 
before this last election who even wanted to take up the gender 
change because it requires a court hearing. They did not want 
to hear them, so people had to travel all the way to Austin to 
do it.
    Could you just crystalize for us the average time the 
process goes through? Because there really are some people who 
think that we can sit here today and just decide overnight that 
we are going to change. For example, I would change and decide 
I am going to be a man beginning tomorrow, and the chairman 
would decide he was going to be a woman tomorrow. It is not 
that simple, is it?
    Ms. Tobin. Congresswoman, the procedures for name and 
gender changes on ID and birth certificates vary a great deal 
from State to State. These things are managed at the State 
level.
    There is a tremendous amount of reform and improvement 
happening, but it is a process that can take many weeks or 
months in some jurisdictions. Even in jurisdictions that have 
streamlined that process a great deal, individuals do have to 
sign a statement stating under penalty of law that they are 
undertaking that change for purposes of being consistent with 
their gender identity and not for any other purpose. States 
have found that requirement to be sufficient to serve all of 
their official needs. That has been very successful across the 
country.
    But even then, it can be a costly and time-consuming 
process, which is why it is important for Federal programs, 
that we not tie eligibility and access to critical services, 
especially things like emergency shelter, to things like ID 
document gender changes that can be so variable and burdensome 
to get across the country.
    Ms. Garcia of Texas. Thank you. I yield back.
    Chairman Green. The gentlelady's time has expired.
    The Chair now recognizes the gentlewoman from Michigan, Ms. 
Tlaib, for 5 minutes.
    Ms. Tlaib. Thank you, Mr. Chairman.
    One of the things I think folks do not understand is that 
being poor can--you can die from being poor. It kills. Poverty 
in our country kills, maybe not getting access to clean 
drinking water, a home, food, whatever it is, healthcare.
    It is important for me, as I am trying to combat poverty 
with all of my residents. It always starts with this 
documentation and getting this information in their hands so 
they can apply for the help, so they can seek it out.
    And, so, if you can continue the conversation we started 
about that. I just want a lot of the neighbors and folks to 
fully understand it is not this--even the transitioning and 
everything that happens, the impact on their--especially my 
transgender neighbors, in that process, that it is not only 
discrimination and violence, horrible violence, but it is also 
their own government not making it easy on them, and that is 
something that I wanted to highlight here.
    Mr. David. Sure. I think putting it in context for people 
is critically important. If you do not have the appropriate 
documentation, you cannot get into a government building. You 
may not be able to get onto an airplane. But when we are 
talking about basic necessities, getting a job, getting a home, 
getting access to certain types of public accommodations, if 
you do not have vital documentation that is consistent with 
your gender identity, it makes it very, very difficult to talk 
about getting out of poverty. And many members of our 
transgender community face additional challenges.
    Coming out as transgender, and we talked about--well, we 
actually did not talk about that specifically here. But the 
suicide rate, as an example, among Black transgender women is 
47 percent: 47 percent of Black transgender people attempt 
suicide at some point in their life because of all of the 
challenges that they face.
    Without this vital document, whether it be a driver's 
license or passport or some type of documentation, it is very 
difficult to get out of poverty. It makes it very difficult to 
get and sustain a job. It makes it very difficult to obtain 
housing.
    One of the tools that I think is incredibly important for 
legislators to think about is creating solutions at the State 
level as we continue to fight to pass the Equality Act because 
many members of the transgender community need those changes 
now. So, in order for them to get the job and the housing, we 
need the State protections.
    Ms. Tobin, I don't know if there is more that you want to 
add to that?
    Ms. Tobin. You stated it very well. There certainly are 
still some States in which you have to pay high fees, and wait 
many months to go to court. There is a small and shrinking, but 
still a number of States that require you to show proof of 
medical procedures that might even be medically contraindicated 
for you, without which you cannot obtain appropriate 
documentation, and you can have exactly all of the barriers to 
opportunity that Mr. David outlined.
    And, so, it is definitely important that we pass the 
Equality Act at the Federal level, and that we work at the 
State level to continue to make accurate ID available to 
everyone.
    Ms. Tlaib. Thank you, Ms. Tobin, and thank you, Mr. David. 
I yield back, Mr. Chairman.
    Chairman Green. The gentlelady yields back.
    The Chair now recognizes the gentlewoman from 
Massachusetts, Ms. Pressley, for 5 minutes.
    Ms. Pressley. Thank you, Mr. Chairman.
    I know it is off topic, not germane to the subject for 
today, but I would be remiss if I did not just offer to all of 
you, and I would love to enlist you as accomplices in this 
work. I support the Dignity for Incarcerated Women Act. And 
given the confluence of all of the intersectionality of both 
oppression and trauma and discrimination here, we know that so 
many transgender individuals have no other choice but to do sex 
work.
    I am for decarceration, but while folks are incarcerated, 
we need to make sure they are treated with dignity and that 
they are safe. And, so, I hope that some of you would be 
willing to work with me on those protections and those issues 
specifically. And as I mentioned earlier, I am vice chairing 
the Task Force on Aging and Families, these specific nuance 
issues facing our LGBTQ+ elders.
    But my question, Mr. Creighton, was actually on the 
consumer reporting side of things. I am a firm believer in 
data. The best policies are informed by data; that data to mean 
the lived experiences of people. I also believe that that which 
gets measured, gets done. So we need that reporting for the 
purposes of transparency and accountability.
    Your organization prides itself on being the voice of the 
consumer reporting industry. How can an eviction be reflected 
on an individual's credit report or rental history report?
    Mr. Creighton. Right now, we do not collect that 
information, because it is not predictive in whether or not 
somebody is going to pay back a loan. And we would suggest that 
there is nothing in the gender identity or sexual orientation 
of an individual that would be predictive for a loan. And, so, 
we would not collect it. Our business is in credit reporting.
    Ms. Pressley. I see.
    Mr. Creighton. Not in--
    Ms. Pressley. Okay. Does eviction information specify 
whether discrimination played a role in the eviction?
    Mr. Creighton. Eviction records are what they are. We do 
not--we are just passing on the eviction records that we get 
from other places in consumer reports. Of course, eviction is 
not part of a credit report. It is part of the other kind of 
consumer reports that we do.
    Ms. Pressley. And do you believe the lack of information 
about discrimination in rental history reports puts LGBTQ+ 
individuals at a further disadvantage when seeking rental 
housing?
    Mr. Creighton. I don't know the answer to that.
    Ms. Pressley. Any other opinion you would like to elaborate 
on where that is concerned?
    Mr. Creighton. Eviction records are important for landlords 
to consider when they are looking to rent an apartment to 
somebody, and it is one of many factors that they are going to 
take into account. It should not be the determinative factor, 
but it should be a factor. Eviction records are public records, 
and so we help landlords get access to them.
    Ms. Pressley. Okay. Anyone else on the panel care to 
comment?
    Mr. Sun. I just want to add that when we tried to merge the 
HMDA data with the Fannie Mae single family loan performance 
data, we did find that there is some evidence that same-sex 
couples are less likely to prepay their mortgage. In terms of 
default risk, there is no prediction power whether they are 
more likely or less likely. They are equally likely to default 
on the loan.
    But in terms of the prepaying risk, that is still a 
legitimate risk factor to lenders. There is a prediction power 
that same-sex couples turn out to be less likely to prepay for 
their loan.
    So, there is some chance that it might have some prediction 
power in terms of the overall credit risk assessment.
    Ms. Pressley. Thank you, Professor Sun. Anyone else? We 
have about a minute and 19 seconds left here.
    Mr. Adams. I would just add that I think that there is 
ample evidence that the failure to ask for data on sexual 
orientation and gender identity in fact contributes to 
discrimination and marginalization, and we need to look no 
further than the Trump Administration's efforts to remove those 
questions from the National Survey of Older Americans Act 
participants in 2017. In fact, when those questions and when 
that data was being collected, what it demonstrated was the 
failure of federally funded elder services to arrive at and be 
received by LGBTQ+ older adults. If we stop asking those 
questions, we do not identify that problem of discrimination 
and access.
    Ms. Pressley. Mr. David?
    Mr. David. And I also say that, although the data may not 
be collected in the form that we want now, we do know that in 
the mortgage and lending industry, same-sex couples are facing 
discrimination. If you receive a lending application or 
mortgage application from Ben and Peter, as opposed to Ben and 
Susan, we know that that application is being treated 
differently.
    And we know from our history, we know from redlining, we 
know from mortgage-backed securities, that the financial sector 
has, unfortunately, treated racial minorities, and 
disadvantaged groups, differently. And unfortunately, it is the 
same here for same-sex couples and members of the LGBTQ+ 
community.
    Ms. Pressley. Thank you. Thank you, panel.
    Chairman Green. The gentlelady's time has expired.
    The Chair recognizes himself for a final 5 minutes.
    Let's continue where you left off, Mr. David. Can you give 
other examples of how the loan officer can ascertain that the 
borrower is a member of the LGBTQ+ community?
    Mr. David. In addition to the mortgage application, which 
would reflect the names of the parties seeking the mortgage, in 
some cases, there may be an interview where the parties will 
show up to talk about their interest in purchasing a home. And 
at that point, they identify their relationships.
    In other instances, they indicate that they are married on 
the application itself, and they indicate the person to whom 
they are married. And under all of those circumstances, the 
financial institution will have information with respect to the 
sexual orientation of the party seeking to purchase the loan, 
or seeking to enter into some type of financial transaction 
with the institution.
    Chairman Green. Let's move to the area of housing. How have 
we been able to ascertain that the discrimination exists with 
same-sex couples? Perhaps testing might be a part of the 
answer. Would someone care to respond? Mr. Adams?
    Mr. Adams. Yes. Thank you. We have good beginner data on 
that question because of research that has included testing-
based research. The study that I referred to previously that 
documents discrimination at the level of 48 percent against 
older, same-sex couples, is testing-based discrimination in 
which different-sex couples and same-sex couples applied for 
senior rental housing. That kind of testing can ferret out 
discrimination and identify where we need to take action.
    And I might add that studies like that demonstrate that 
market incentives are not enough to eliminate discrimination. 
There are plenty of market centers and senior rental housing, 
and we still see very high levels of discrimination.
    Chairman Green. Thank you. I am going to conclude with some 
statements.
    I think this hearing has been exceedingly important because 
we have legitimized data. We have legitimized the fact that 
this invidious discrimination occurs.
    It is important for us to first recognize that the problem 
exists if we are going to do something about it. For too long, 
people would simply ignore the facts, not have to do something, 
because there was no harm taking place because it was being 
ignored. Some people would simply say, well, that is just not 
true. People do not discriminate against gay people.
    But today, we have demonstrated with empirical evidence 
that this level of invidious discrimination exists, such that 
it is quite harmful not only to the persons who are being 
discriminated against, but also to the country. Because I have 
some evidence here indicating that the community, the LGBTQ+ 
community, consists of persons numbering in the millions--
approximately 16 million, I believe, is the number that I 
have--and that we have a trillion dollars' worth of buying 
power within the LGBTQ+ community. So, it makes no sense for us 
to discriminate because we are hurting ourselves when we do 
this. But it does happen. We have legitimized it, the 
discrimination, that the discrimination exists.
    And I would add this: There are people who believe that we 
should approach these problems with each community acting on 
its own. I am not one of them. I think that as an ally of the 
LGBTQ+ community, but not a member of it, I have a duty to do 
all that I can to prevent the discrimination.
    But I should not be alone. I think that when it comes to 
discrimination against African Americans, then I should have 
the support of the LGBTQ+ community. And when it comes to 
discrimination against Asian Americans, we should support the 
effort to end that discrimination. We cannot silo ourselves and 
deal with these problems in an effective way. We have to deal 
with them in concert with each other.
    And we have to be bold enough and brave enough to tell 
people within our own communities that we have to reach across 
the chasm to persons in the other communities so that we may 
work together. It is with this strength that we can not only 
manage, but eliminate these problems.
    I started this hearing by indicating that you are not 
alone. And I will end with, you are not alone. You have allies 
within this Congress who are going to fight with you and for 
you.
    I would like to thank the witnesses for their testimony and 
for devoting the time and resources to travel here and share 
their expertise with this subcommittee. Your testimony today 
has helped to advance the important work of this subcommittee 
and of the United States Congress.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    Without objection, the hearing is now adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                            A P P E N D I X



                            October 29, 2019
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            
</pre></body></html>
